■;

No.

/fO

fnj

f

bs)bi

Provided to South Bay Coir, and Rehab. facility
on ft-i7-lo/Ic>

for mailing.

IN THE
SUPREME COURT OF THE UNITED STATES

JESUS N. RODRIGUEZ — PETITIONER
VS.

a VS O

I u

5 ©. f m P,

G. a GVw pi p
y;

v-.e.

STATE OF FLORIDA— RESPONDENT

UNITED STATES COURT OF APPEAL
ELEVENTH CIRCUIT
PETITION FOR A WRIT OF CERTIORARI

t

FILED
NOV 1 2 2020
I
JESUS N. RODRIGUEZ M 61525#
South Bay Corr. Facility
P.O. Box 7171 South Bay, Florida 33493

received

NOV 2 h 2020
9FFICE OF THE CLERK
SUPREME COURT, U.S.

QUESTION(S) PRESENTED
WHETHER THE DISTRICT COURT INVITED ERROR RESULTING IN
FUNDAMENTAL PLEADING DEFECT BY PERMITTING “INCORPORATED
GROUNDS” NOT EXPLAINED IN THE PETITION TO GO FORWARD,
INTENTIONALLY CREATING WINDFALL FOR THE RESPONDENT BY
STATING THE GROUNDS WOULD BE CONSIDERED AS A REPLY TO THE
ANSWER, WHICH DID NOT ADDRESS ANY THEREOF. THE UNCORRECTED
DEPRIVATION WARRANTS SUPERVISORY AUTHORITY OF THIS COURT,
WHERE RULE 4, RHCP AND . ARE DEFIED, PRECEDENT IS LACKING AND
PETITIONER WILL PERISH IN PRISON WITHOUT INTERVENTION.

2

LIST OF PARTIES
[ XXX ] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
Florida Attorney General
Ashley Moody, Attorney General
Department of Legal Affairs
Office of the Attorney General
The Capitol PL-01
Tallahassee, Florida 32399-1050

3

TABLE OF CONTENTS
OPINIONS BELOW

6

JURISDICTION

7

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

8

STATEMENT OF CASE AND FACTS

9

REASON FOR GRANTING PETITION

14

CONCLUSION

17

INDEX OF APPENDICES
APPENDIX A

Eleventh Circuit Court Of Appeal Opinion Affirming.

APPENDIX A “1” Order Denying Rehearing
APPENDIX B

Report & Recommendation of Magistrate Denying Relief

APPENDIX C

Order Adopting Report and Recommendation

APPENDIX D
Report & Recommendation Denying To Hold In Abeyance Or
Otherwise Withhold A Ruling On Petition
APPENDIX E

Opinion Plenary Appeal

4

T

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Borden v. Allen. 646 F.3d 785 (11th Cir. 2011)

16

Paez v. Secretary, Florida Department Of Corrections. 947 F3d 649 (11th Cir.
2020)

16

Storti v. Massachusetts. 183 U.S. 138, 22 S. Ct. 72, 46 L. Ed. 120 (1901)

14,

17

STATUTES AND RULES
RULE 4, RHCP

2

28 U.S.C. 2243

2

28 U.S.C. 2254

12, 14, 15

OTHER
Sixth Amendment

In Passing

Fourteenth Amendment

In Passing

5

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment
below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States Court of Appeals appears at Appendix A, to the
petition and is
[ ] reported at (the facility’s computers are not undated so I am not sure if
the decision was reported: or,
[ ] has been designated for publication but is not yet reported; or,
[ ++ ] is unpublished.
The opinion of the United States District Court appears at Appendix B to the
petition and is
[ ++ ] reported at JESUS N. RODRIGUEZ vs. JONES, 2017 US Dist LEXIS
2126 (2020)_; or,
[ ] has been designated for publication but is not yet reported; or;
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at Appendix
_________to the petition and is
[ ] reported at
[ ] has been designated for publication but is not yet reported; or.
[ ] is unpublished.
The opinion of the Third District Appeals court appears at Appendix E, to the
petition and id

6

T

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals, 11th Circuit decided
my case was
Affirmed on May 11, 2020:
[++ ] A timely petition of rehearing was denied by the United States Court of
Appeals on the following date: July 15, 2020, and a copy of the Order Denying
Rehearing appears at Appendix A “1”
[ ++] An extension of time to file the petition for a writ of certiorari was
granted to and including an additional 60 days per Order of the Court as a
result of the Covid virus.
The jurisdiction of this Court is invoked under 28 U.S.C. §1254(1).

7

T

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
This matter regards petitioner’s Sixth Amendment constitutional guarantee
to Access to the Courts, as the District Court’s actions nullified Petitioner’s
meaningful opportunity to have his constitutional claims heard.
It cannot be said that Petitioner was afforded Due Process of Law as the
Federal Magistrate lead Petitioner to believe that the 25 grounds would be
considered as a reply to the State’s Answer. Procedurally this is impossible as the
State never addressed any of these grounds. Such an assurance defies the very
integrity of the process due.

8

T

STATEMENT OF CASE AND FACTS
The State of Florida charged Petitioner Rodriguez with the murder of his
wife. The grand jury indicted him on (1) first-degree murder, (2) kidnapping, (3)
burglary with an assault or battery, and (4) aggravated stalking. The evidence
against him on the murder charge was all circumstantial, as his wife's body was
never found.
The charges stem from a domestic dispute dating back to October of 2001,
when Rodriguez's wife Isabel petitioned for divorce. She obtained a restraining
order against Petitioner Rodriguez after she allegedly received a phone call from
him threatening to kill her.*l At trial, two witnesses, including the officer who
served the injunction, testified that Rodriguez became very angry when he was
served with the order and that he made threatening remarks to Isabel.
On November 13, 2001, Isabel became missing. Judith Almeida, who was a
tenant on Isabel's property, testified that she received a call from Rodriguez asking •
her if she would be going to work the next morning and that she saw someone
hiding behind a car on the property the next morning, while taking out the trash.
Rodriguez's adult daughter, Rochelle, testified that she and Rodriguez had planned
to take her car to his farm on the morning of November 13 for him to work on it. At
Rodriguez's farm, Rochelle noticed a fire burning on the property and that

1 This alleged phone call was sprung on Petitioner at trial via testimony of his wife’s
divorce attorney. No mention of the call was made in discovery and the records of
the wife’s phone conclusively prove no such call was made. The ground was one of
the ineffective assistance of counsel claims raised in state court postconviction and
sought to be presented in the federal petition.
9

T

Rodriguez had scratches on his nose and was pressure cleaning his Lincoln
Continental, which had been seen at Isabel's house earlier in the day. *2 Petitioner
Rodriguez's girlfriend also testified that he did not have scratches on his body before
he left the house that day, but did have scratches on his back and nose when he
returned in the evening.
On November 15, investigators transported Rodriguez's Lincoln Continental
to the medical examiner's office for processing. The homicide detective that
transported the vehicle testified that immediately upon opening the trunk, he
noticed the smell of a decomposed body and the smell of a cleaning agent.*3 The
detective also testified that the entire trunk was soaked and was wet from
condensation. On November 26, 2001, an investigating officer went to Isabel's home
to serve a search warrant and encountered Petitioner Rodriguez on the property.
Rodriguez invited the officer inside the home to show him the property, and told the
officer that he need not worry about the restraining order because Isabel would
never be coming back. Petitioner Rodriguez was arrested on April 11, 2002. While
the detective was preparing paperwork on the arrest, Petitioner Rodriguez allegedly
spontaneously stated that the police were mistaken about his motive for killing
Isabel, namely that it was about money and not jealousy.
Petitioner Rodriguez testified on his own behalf at trial, admitting that he
was at Isabel's home on November 13, to care for the many animals on the property

2 The pressure cleaner was an air compressor not a pressure washer.
3 This testimony is nonsensical given that assuming all the other facts as true; Mrs.
Rodriguez would have been in the trunk of the car for less than 30 minutes.
10

T

and to retrieve his Lincoln. The same was in violation of the restraining order. The
jury found him guilty as charged on all four counts, and he was sentenced to life in
prison for the murder and kidnapping counts, thirty years for the burglary count,
and five years for the aggravated stalking count. These facts were derived from the
opinion affirming Petitioner’s Plenary Appeal. The same appears at APPENDIX E,
Opinions Below.
Petitioner sought state postconviction relief wherein Petitioner raised 25
substantive grounds of ineffective assistance of trial counsel. (IAC) Petitioner was
provided an evidentiary hearing on several of the grounds and via privately
retained counsel presented witnesses and evidence on his behalf. The State
postconviction Court (11th judicial Circuit, Miami, Fla.) denied relief with written
order. Postconviction counsel failed to inform Petitioner of the denial. Apparently no
notice of appeal was filed in time. An initial brief which is mandatory in such
proceedings was not filed by Petitioner, as he continuously sought appointment of
counsel and repeatedly denied. The appeal was apparently thereafter dismissed. A
citation exists for denial of rehearing, but not for the dismissal of the appeal. The
Federal Magistrate incorrectly found that the Third District Court of Appeal
affirmed denial of the State Postconviction court’s denial after hearing.

11

T

Petitioner proceeded to the Federal District Court, Southern District of
Florida, Miami, via Writ of Habeas Corpus, 28 U.S.C. §2254, prepared by an
unskilled fellow inmate.4
The inmate drafted the standard form and included an impermissible short
cut by stating the grounds presented in the State Court postconviction motion were
“incorporated and consolidated.” Unfortunately, the writer did not identify the
claims nor attach the postconviction motion to the Petition. Petitioner presented
two additional claims that did contain some facts.
The District Court exercised It’s screening obligation, found the Writ stated a
prima facie case for relief, and issued Order To Show Cause. Respondent filed
Answer on January 5, 2017, by addressing the two grounds presented and ignoring
the “incorporated” grounds:”'Petitioner sought to amend the Petition on January 24,
2017. The Magistrate however, denied amendment and informed the parties that he
would “consider the contents of [the motion] as a reply to the Answer, but did not
treat the Motion itself as an Amended §2254 Petition. APPENDIX A, at pg. #3,
Opinions Below.
Thusly, Petitioner as denied the opportunity to challenge his unconstitutional
confinement resulting from conviction clearly obtained from ineffective assistance of
trial counsel.

4 As noted by the Eleventh Circuit Court of Appeal, Petitioner speaks very limited
English and suffered severe physical injury directly prior to preparation of the Writ,
resulting from a fall down two flights of stairs. Petitioner is now wheel chair bound.
12

The Eleventh Circuit Court of Appeal issued opinion affirming denial
primarily ignoring that the District Court invited error when finding the Petition
legally sufficient and then knowingly misstating that It would treat the 25 grounds
as a reply to the Answer. The opinion is presented at APPENDIX A, Opinions
Below.

13

REASON FOR GRANTING PETITION
The number of pro-se petitions per 28 U.S.C. §2254 continue to increase and
this cause presents a clear example of exactly how a Federal District Court’s
screening procedure should not operate. If the Motion For Leave to Amend was to
be denied, then order should have entered accordingly. To assure petitioner that the
grounds would be considered as a reply to the Answer (which ignored the grounds)
was equivalent to ensuring that the grounds were never considered. Correcting this
cause would guidance regarding implementation of Rule 4 and set forth framework
by which a Federal District Court may discharge its screening obligation of
petitions clearly failing to state a claim. Such guidance would reduce needless
expenditures of judicial resources and thereby facilitate the interests of justice as
liberty finds no refuge in a jurisprudence of doubt.
What could be more unfair to a disabled pro se petitioner relying on the inept
services of a fellow inmate, then to be assured by a Federal magistrate that his
grounds would be considered, only to be later faulted by the same Magistrate for not
having pleaded the grounds. In good faith the naive Petitioner proceeded with the
court’s assurance only to be lead squarely into the ultimate form of default.
Command of predecessor to 28 USCS § 2243 is “to dispose of the party as law
and justice require;” all the freedom of equity procedure is thus prescribed; and
substantial justice, promptly administered, is ever the rule in habeas corpus. Storti
v. Massachusetts. 183 U.S. 138, 22 S. Ct. 72, 46 L. Ed. 120 (1901).

14

The law in the Eleventh Circuit Court of Appeal as regards review and
screening of a Petition prior to requiring Answer was clear at the time of
Petitioner’s Federal presentation and appeal. Rule 4, Rules Governing Section 2254
Cases requires district courts to dismiss petitions without ordering the State to
respond if “it plainly appears from the petition and any attached exhibits that the
petitioner is not entitled to relief.” This preliminary review calls on a district court
to perform a screening function, ordering summary dismissal where a petition
makes no meritorious claim to relief.
To survive Rule 4 review, a 28 U.S.C.S. § 2254 petition must set forth facts
that, if true, would establish a constitutional violation entitling the petitioner to
relief. The §2254 petition must comply with the fact pleading requirements of
Habeas Rule 2(c) and (d) to -survive dismissal under Rule 4. If a petition does not set
forth a sufficient factual basis for habeas relief, the petition is legally insufficient on
its face, and the district court must dismiss it. Borden v. Allen. 646 F.3d 785, 810
(11th Cir. 2011) (holding that a § 2254 petition must comply with the "fact pleading
requirements of [Habeas] Rule 2(c) and (d)" to survive dismissal under Rule 4). If a
petition does not set forth a sufficient factual basis for habeas relief, the petition is
"legally insufficient on its face," and the district court must dismiss it. McFarland v.
Scott. 512 U.S. 849, 856, 114 S. Ct. 2568, 2572, 129 L. Ed. 2d 666 (1994). Cited in
Paez v. Secretary. Florida Department Of Corrections. 947 F3d 649, 653 (11th Cir.
2020)

15

The District Court screened the Petition and undoubtedly noticed the
pleading format, that the twenty-five grounds were incorporated by reference. The
District Court found this procedure acceptable, and the Petition found to be
sufficient. The District Court permitted the process to proceed and ordered Answer.
Review of the Motion For Leave to Amend reveals that Petitioner alleged that
the Amendment was necessary as the 25 grounds were not addressed in the
Answer. The District Court denied the Motion For Leave To Amend and in doing so,
the Docket entry notes that the 25 grounds would be “considered by the Court as a
reply” to the State’s Response—Answer.
Thereafter, the Federal Magistrate entered Report and Recommendation
“flipping the script” as follows: “Petitioner also asks this Court to order a new trial
based on the 25 grounds-presented herein. However, Petitioner does not articulate
what those claims are.” The R&R continues: “To the extent Petitioner asks for a
new trial based on the 25 claims presented herein, petitioner only presented two
claims in his federal habeas petition. This Court cannot be left to speculate as to
what the other 25 claims might be. To that extent, Petitioner fails to state any
claims other then the two addressed herein this report. As such, his request for a
new trial based on 25 claims should be denied.” 5 OPINION at APPENDIX B

5 In a footnote regarding the error created by the Magistrate, the Court states:
Petitioner is cautioned that arguments not raised by Petitioner before the
magistrate judge cannot be raised for the first time in objections to the
undersigned's (citations omm.) "Parties must take before the magistrate, 'not only
their best shot but all of the shots.'", Thus, [w]here a party raises an argument for
the first time in an objection to a report and recommendation, the district court may
exercise its discretion and decline to consider the argument." Here, if Petitioner
16

T

Petitioner respectfully contends that in no manner can this process be just. In
no stretch of Due Process can this procedure comply with “all the freedom of equity
procedure is thus prescribed; and substantial justice, promptly administered, is ever
the rule in habeas corpus.” Storti v. Massachusetts. 183 U.S. 138, 22 S. Ct. 72, 46
L. Ed. 120 (1901).
CONCLUSION
Correcting this facial, substantial injustice is sought, as only this Court can
correct this mater. The Petition for a Writ Of Certiorari respectfully, should be
granted.
^ Respectfully Submitted,
Jglus N. Rodriguez, M61525
SBCRF
P.O. Box 7171
SouthBay, Fla. 33493
Certificate of Mailing
I certify that I, Jesus N. Rodriguez, M61525 placed this Petition For A Writ
Of Certiorari in the hands of South Bay Correctional Facility officials for mailing to:
United States supreme Court one first street N.E. Washington DC 20543 and
Florida Attorney General Ashley Moody, Attorney General_Department of Legal
Affairs_0ffice of the Attorney General_The Capitol PL-01 Tallahassee, Florida
32399-1050 on

2020.
/ s/

attempts to raise a new claim or argument in support of this § 2254 motion, the
court should exercise its discretion and decline to address the newly-raised
arguments.

17

T

IN THE
SUPREME COURT OF THE UNITED STATES

JESUS N. RODRIGUEZ — PETITIONER

VS.

STATE OF FLORIDA — RESPONDENT
PROOF OF SERVICE
I, JESUS N. RODRIGUEZ, do so swear or declare that on this date, November
___ , 2020, as required by Supreme Court Rule 29 I have served the enclosed
MOTION FOR LEAVE TO PROCEED IN FORMA PRUPERIS and PETITION FOR
A WRIT OF CERTIORARI on each party to the above proceeding or that party’s
counsel, and on every other person required to be served, by depositing an envelope
.... ■ containing the above documents in the United States mail properly addressed to
each of them and with first-class postage prepaid, or delivered to a third-party
commercial carrier for the delivery within 3 calendar days.
The names and addresses of those served are as follows:
Florida Attorney General
Ashley Moody, Attorney General
Department of Legal Affairs
Office of the Attorney General
The Capitol PL-01
Tallahassee, Florida 32399-1050.
1 declare under penalty of perjury that the foregoing is true and correct.
Executed on November

. 2020.
(Signature)

No.

IN THE
SUPREME COURT OF THE UNITED STATES

JESUS N. RODRIGUEZ — PETITIONER
VS.
STATE OF FLORIDA— RESPONDENT

APPENDIX (OPINIONS BELOW)

JESUS N. RODRIGUEZ M 61525#
South Bay Corr. Facility
P.O. Box 7171 South Bay, Florida 33493

APPENDIX A
Eleventh Circuit Court Of Appeal Opinion Affirming

APPENDIX A
Eleventh Circuit Court Of Appeal Opinion Affirming

Case: 18-12699

Date Filed: 05/11/2020

Page: 1 of 8

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 18-12699
Non-Argument Calendar

D.C. Docket No. l:16-cv-23755-KMW

JESUS N. RODRIGUEZ,
Petitioner-Appellant,
versus

ATTORNEY GENERAL, STATE OF FLORIDA,
FLORIDA DEPARTMENT OF CORRECTIONS,
Respondent-Appellee.

Appeal from the United States District Court
for the Southern District of Florida

(May 11, 2020)

Case: 18-12699

Date Filed: 05/11/2020

Page: 2 of 8

Before JORDAN, NEWSOM, and LUCK, Circuit Judges.
PER CURIAM:
Jesus Rodriguez appeals the district court’s denial of his motion to amend his
28 U.S.C. § 2254 petition for writ of habeas corpus. We affirm.
FACTUAL BACKGROUND AND PROCEDURAL HISTORY
On September 1, 2016, Rodriguez filed a prose §2254 petition in the
Southern District of Florida. The petition asserted two claims that are not at issue
on appeal. Separately, the petition also noted that Rodriguez had raised twenty-five
claims in his state postconviction motion and that those claims were “incorporated
and consolidated” into the petition. However, the petition did not describe the nature
•..... of those incorporated claims, nor was Rodriguez’s state postconviction motion
attached to the petition.
On January 5, 2017, the Secretary of the Florida Department of Corrections
filed a response. The secretary addressed the merits of the two claims raised in
Rodriguez’s petition and did not address the twenty-five claims that Rodriguez
sought to incorporate from his state postconviction motion.
On January 24, 2017, Rodriguez filed a motion to amend his petition. The
motion copied the twenty-five claims Rodriguez had previously tried to incorporate
from his state postconviction motion. The motion also set forth two claims that
Rodriguez had raised on direct appeal and two claims that Rodriguez had raised in a
2

Case: 18-12699

Date Filed: 05/11/2020

Page: 3 of 8

state habeas petition. Rodriguez asserted that those four additional claims were
unknown to him until the secretary filed portions of the state court record as exhibits
in response to his § 2254 petition. Rodriguez also claimed that he relied on other
prisoners to assist him, he suffered from “serious and severe head injuries,” and he
was unable to read English. The magistrate judge said he would “consider the
contents of [the motion] as a reply to the [secretary’s] response,” but he did not treat
the motion itself as an amended § 2254 petition.
On March 14, 2017, Rodriguez filed a second motion to amend his § 2254
petition or, in the alternative, a motion to file a reply to the secretary’s response.
Rodriguez asserted that his § 2254 petition was “wholly inadequate” because he
Teliedon another inmate to help him prepare the petition and was misled about that inmate’s capabilities. Rodriguez explained that he relied on the same inmate to
prepare his first motion to amend and acknowledged that the motion was defective
because it did not “follow proper format,” “[did] not raise Federal Constitutional
violations,” and did not “raise Federal case law to support the Constitutional
violations in the State Court proceedings.” Rodriguez further stated that his first
motion to amend “lack[ed] substance, format, and procedure” and “varie[d] so vastly
from the standard required format[] that it should be construed as a nullity.”
Rodriguez sought leave to amend his petition under Federal Rule of Civil Procedure
15 and argued that it would be unjust to deny him leave because he was “serving a
3

Case: 18-12699

Date Filed: 05/11/2020

Page: 4 of 8

life sentence and [could file] a properly prepared Petition.” He claimed that he was
“not causing undue delay” and had not prejudiced the secretary.
In his order, the magistrate judge said “the time by which to file an amended
petition ha[d] passed because the [secretary] ha[d] already filed a response,” but
Rodriguez could file a reply to the secretary’s response. Rodriguez later filed a reply
addressing the secretary’s arguments but did not mention the twenty-five claims
from the state postconviction motion.
On December 22, 2017, the magistrate judge entered a report and
recommendation concluding that Rodriguez’s petition should be denied. In doing
so, the magistrate judge considered only the two claims expressly raised in
'Rodriguez’s petition.

The magistrate judge acknowledged that Rodriguez had

sought to incorporate twenty-five claims from his state postconviction motion but
stated that Rodriguez failed to “articulate what those [claims] are.” The magistrate
judge added that the court “[could not] be left to speculate as to what the other
twenty-five claims might be.” Rodriguez timely objected to the magistrate judge’s
report and recommendation, arguing in part that the magistrate judge erred in not
considering the contents of his first motion to amend.
On May 25, 2018, the district court entered an order overruling Rodriguez’s
objections and adopting the magistrate judge’s report and recommendation. The
district court also denied Rodriguez a certificate of appealability. Rodriguez timely
4

Case: 18-12699

Date Filed: 05/11/2020

Page: 5 of 8

appealed and we granted a certificate of appealability on the following issue:
“Whether the district court abused its discretion in denying Rodriguez’s motions to
amend his 28 U.S.C. § 2254 petition to specify 25 additional claims that he had
sought to incorporate by reference in his original § 2254 petition.”
STANDARD OF REVIEW
“Our review is limited to the issue specified in the certificate of appealability.”
Castillo v. United States. 816 F.3d 1300, 1306 (11th Cir. 2016). “[T]he granting or
denial of leave to amend lies within the discretion of the trial court and is subject to
reversal only for abuse of discretion.” Moore v. Balkcom, 716 F.2d 1511, 1526-27
(11th Cir. 1983). “[W]hen employing an abuse-of-discretion standard, we must
_

affirm unless we find that the district court has made a clear error ofjudgmentf] or
has applied the wrong legal standard.” United States v. Frazier. 387 F.3d 1244, 1259
(11th Cir. 2004) (en banc). We liberally construe pleadings filed by pro se parties.
Dixon v. Hodges, 887 F.3d 1235, 1237 (11th Cir. 2018).
DISCUSSION
Rodriguez argues that the district court abused its discretion by not
considering his first motion to amend as an amended § 2254 petition because he was
entitled to an amendment as a matter of course under Federal Rule of Civil Procedure
15(a)(1)(B). He claims that the district court committed a clear error in judgment by
instead treating his first motion as a reply. He further argues that the district court
5

Case: 18-12699

Date Filed: 05/11 /2020

Page: 6 of 8

compounded its error by ignoring the contents of his motion and concluding that he
failed to articulate the claims he sought to incorporate. Rodriguez acknowledges
that he did not comply with the procedural rules, but he nonetheless argues that he
substantially complied with the requirements.
As to the first motion to amend, we conclude the district court did not abuse
its discretion in considering the motion as a reply rather than an amended petition.
Because Rodriguez sought to amend within twenty-one days of service of the
secretary’s response, he could amend his petition as a matter of course and didn’t
need to file a motion or ask for leave. See Fed. R. Civ. P. 15(a)(1)(B). Even giving
it a liberal construction, the first motion to amend could not be considered an
amended petition. The applicable rules set forth clear requirements for a“§ 2254
petition, including that petitions must “substantially follow” the form in the rules
and give the district court the critical information required by the form. See Rule
2(c)—(d) of the Rules Governing § 2254 Cases; see also McFarland v. Scott. 512 U.S.
849, 856 (1994) (“Habeas corpus petitions must meet heightened pleading
requirements, see 28 U.S.C. § 2254 Rule 2(c)....”). Here, Rodriguez’s first motion
did not comply with those requirements. Indeed, Rodriguez admitted as much,
telling the district court to disregard it because it lacked substance, did not raise
federal constitutional violations, and did not follow the proper format and procedure.
Because of these defects, Rodriguez asked the district court to treat the first motion
6

Case: 18-12699

Date Filed: 05/11 /2020

Page: 7 of 8

to amend “as a nullity.” We cannot say the district court abused its discretion when
it did exactly what Rodriguez asked it to do. Cfi Frazier, 387 F.3d at 1259 (“By
definition... under the abuse of discretion standard of review there will be occasions
in which we affirm the district court even though we would have gone the other way
had it been our call. That is how an abuse of discretion standard differs from a de
novo standard of review. As we have stated previously, the abuse of discretion
standard allows a range of choice for the district court, so long as that choice does
not constitute a clear error of judgment.” (citation and quotation marks omitted)).
As to the second motion to amend, even giving his brief a liberal construction,
Rodriguez doesn’t appear to argue that the district court abused its discretion in
"

denying leave to amend under Rule 15(a)(2). He seems to have abandoned any issue
regarding the denial of the second motion. See Singh v. U.S. Att’v Gen., 561 F.3d
1275, 1278 (11th Cir. 2009) (“[A]n appellant’s simply stating that an issue exists,
without further argument or discussion, constitutes abandonment of that issue and
precludes our considering the issue on appeal.”). But even if this issue had not been
abandoned, we would not find an abuse of discretion. The second motion asked the
district court for one of two things: leave to file an amended petition; or, “in the
alternative, to serve a reply to the [secretary’s] response.” The district court granted
Rodriguez’s alternative request and ordered that he “may file a reply to the
[secretary’s] response on or before March 29, 2017.” Rodriguez filed a reply but
7

Case: 18-12699

Date Filed: 05/11/2020

Page: 8 of 8

did not mention or argue the twenty-five claims from his state postconviction
motion. Given that the district court gave Rodriguez the relief he asked for and
Rodriguez didn’t take advantage of it, we cannot say there was an abuse of
discretion.
AFFIRMED.

8

